IN THE
SUPREME COURT OF THE UNITED STATES

GABRIEL M. ROBLES,
— PETITIONER
(Your Name)
ROBERT L. WILKIE, Vs.
Secretary of Veterans Affairs,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI JO

filed
SEP 0 5 2020

®lmtet> States Court of Appeal:
S«SiS;s-r3Si[!};; I
for tfje Jfeberal Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

GABRIEL M. ROBLES

(Your Name)
1243 SW Western Avenue, Apt. B-18
(Address)
Topeka, Kansas. 66604
(City, State, Zip Code)
(785) 224-8195
(Phone Number)

QUESTION(S) PRESENTED

QUESTION # 1 .
Did the fact that a response from the Respondent was
not required in the Court of Appeals for Veterans Claims
cause the court to assume the Petitioner's "Extraordinary
Writ" for relief was filed in retaliation for an adverse
decision by the Respondent for Veterans benefits?
QUESTION # 2.
Did erroneous ex parte communication between the
Respondent and the Court of Appeals for Veterans Claims
cause the court to view the "Extraordinary Writ" as
"... the Court construes as a request for a writ of
mandamus..." ?
QUESTION # 3.
Is it appropriate or even legal for the Federal
Circuit Court to ignore obvious Civil and Constitutional
rights violations by the Respondent simply to shield the
lower court from embarrassment?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
ROBLES v. U.S.A., No. 17-6118, United States Supreme Court.
Petition refused. (Rules 13.1, 29.2, and 30.1) August 29,
2014.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A
Decided: June 11, 2020.
United States Court of Appeals for the Federal Circuit.

APPENDIX B
Decided: August 14, 2019.
United States Court of Appeals for Veterans Claims.

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES
ROBLES V. U.S.A.

PAGE NUMBER
(SC No. 17-6118)

5.

STATUTES AND RULES
CONSTITUTION OF THE UNITED STATES
Article 1. Sec.9 p. 3.

3.

Article 4.

3.

Amendment 1 .

3.

Amendment 4.

3.

Amendment 5.

3.

Amendment 8.

3.

Amendment 1 4.

3.

SCOTUS Rule 10.

3.

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

a

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
court of Appeals for Veterans Claims

The opinion of the United States district court appears at Appendix Ji
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IX] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided mv case

was

June 11, 2020._______

J

CX] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

ARTICLE I. Section 9, paragraph 3.
No Bill of Attainder or ex post facto Law shall be
passed. (Appendix A and B)
ARTICLE VI.
"This Constitution.., shall be the supreme Law of
the Land;.."
AMENDMENT I.
Religion.
AMENDMENT IV.
"The right of the people to be secure..."
AMENDMENT V.
"..without due process of law;.."
AMENDMENT VIII.
".. nor cruel and unusual punishments inflicted."
AMENDMENT XIV. Section 1.
"..nor deny... the equal protection of the laws."
SUPREME COURT RULE IQ(a)
"..has so far departed from the accepted..."

3.

STATEMENT OF THE CASE

Petitioner's "Notice of Appeal" and "Declaration of Financial
Hardship" were faxed to the United States Court of Appeals
for Veterans Claims^on June 3, 2019, after an employee of
the Veterans benefits "Hotline" informed the Petitioner his
"Statement of Case" and "Decision" on his benefits could be
"withheld indefinitely". That call took place May 27, 2019.
The Petitioner's filing for "Rule 21. Extraordinary Relief"
was based on the above related communication.
The lower courts ruling was based on an assumption or some
unknown communication, or some quid pro quo protocol that
the Petitioner was not aware of.
The Respondents "Statement of Case" and "Decision" was not
issued until June 8, 2019.

Subsequent statements made to the Federal Circuit Court
by the Respondent further implicate that Court and the
lower court in a false narrative that the Petitioner was
simply acting in retaliation to a decision he did not
agree with. This Veteran submits that this process was
and is the result of the "VA Scandal" that did and still
does result in the deaths of thousands or even millions
of our Veterans!

4.

REASONS FOR GRANTING THE PETITION

Based on the 100% disability rating given to the Petitioner
by the Social Security Administration on April 17, 2015,
(Timothy G. Stueve, Administrative Law Judge, SSA)
Judge Stueve based his decision on Petitioner's disability
on medical evidence the Petitioner has served on the
Respondent.
The Petitioner currently lives in housing somewhat subsidized
by the Veterans Administration. Rife with prostitution, drug
abuse, stabbings, and shootings that go uninvestigated and
unpunished. Petitioner's wife Bonnie suffered a heart attack
this past Easter that was more than likely a result of fear,
anger, stress, and anxiety due to our living conditions.
We feel the Respondent has placed us in harms way in order
to sweep under the rug the medical malpractice Petitioner
has suffered.
The Federal Judge (Kathy Vratil) that ruled on Petitioner's
medical malpractice case allowed five (5) attorney's to
sue Petitioner as a white female named Jennifer Ruth.
Ms. Ruth was known to associate with Latinos. (USDC, Kan.
Case No. 2:10-cv-02310-KHV. July 7, 2011.)
Local, state, and federal law enforcement refuse to look
into crimes that violate Petitioner's rights.
5.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

August 31, 2020.

6.

